No. 19-1031
IN THE

Supreme Court of the United States
________________________________

ERIN CAPRON; JEFFREY PENEDO;
CULTURAL CARE, INC., d/b/a CULTURAL CARE AU PAIR,
Petitioners,
v.
OFFICE OF THE ATTORNEY GENERAL OF THE
COMMONWEALTH OF MASSACHUSETTS;
MAURA T. HEALEY, in her capacity as Attorney General of the Commonwealth of Massachusetts,
Respondent.
________________________________

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________________

BRIEF OF CURRENT AND FORMER
AU PAIRS AS AMICI CURIAE IN SUPPORT
OF PETITIONERS
________________________________

Mark S. Davies
Counsel of Record
Kelsi Brown Corkran
Thomas M. Bondy
Tiffany R. Wright
James Anglin Flynn
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1152 15th Street NW
Washington, DC 20005
(202) 339-8400
mark.davies@orrick.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ..................................... ii
INTEREST OF AMICI CURIAE .............................. 1
INTRODUCTION AND SUMMARY OF
ARGUMENT ................................................ 2
ARGUMENT ............................................................. 3
I.

THE AU PAIR PROGRAM STRIKES
A CAREFULLY CALIBRATED
BALANCE OF CHILDCARE,
EDUCATION, CULTURAL
EXCHANGE, AND COMPENSATION
AT THE NATIONAL LEVEL ...................... 3

II.

STATES SHOULD NOT BE
PERMITTED TO DISRUPT THE
FEDERAL AU PAIR PROGRAM
WITH THEIR OWN
REQUIREMENTS...................................... 12

CONCLUSION ........................................................ 13

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Hughes v. Talen Energy Mktg., LLC,
136 S. Ct. 1288 (2016)..........................................13
Statutes
22 U.S.C. § 2451 ......................................................3, 4
22 U.S.C. § 2452(a)(1)(B)(ii) ........................................4
Fulbright-Hays Act ...............................................3, 12
Other Authorities
22 C.F.R. § 62.24 .........................................................4
22 C.F.R. § 62.30 .........................................................4
22 C.F.R. § 62.31 .......................................................12
22 C.F.R. § 62.31(a) .....................................................4
60 Fed. Reg. 8547 ..................................................4, 12
60 Fed. Reg. 8548 ........................................................4

INTEREST OF AMICI CURIAE 1
Amici are current and former participants in the
federal au pair exchange program: Maria Arano
Toral, Desirè Del Chiaro, Ziyanda “Zee” Mdletshe,
Lea Pitou, and Torben van Vliet. Amici come from
countries around the world, and they have varied
backgrounds and reasons for participating in the program. They include recent high-school graduates
seeking to expand their horizons and experience the
world, as well as advanced-degree recipients looking
to deepen their cultural understanding and language
fluency in pursuit of their careers. In their time in the
United States, these au pairs have not only served as
cultural ambassadors for their own countries—they
have also become important members of the American families who host them. Amici speak of the au
pair program as their own personal American Dream.
Amici share one overriding interest: their firm belief that the federal au pair exchange program—as it
has operated under exclusive federal governance for
decades—is a deeply meaningful program for global
cultural exchange that strikes a fair, necessary, and
carefully calibrated balance between cultural connection, education, family duty, and compensation. Interjecting a patchwork of state regulation would

1 The parties have consented to the filing of this brief. No
counsel for a party authored the brief in whole or in part. No
party, counsel for a party, or any person other than amici and
their counsel made a monetary contribution to fund the preparation or submission of the brief.

2
undermine and likely destroy the program as it is currently and always has been conceived.
INTRODUCTION AND SUMMARY OF
ARGUMENT
The au pair program is a unique creation of federal immigration and foreign-affairs law, and it has
long been governed exclusively by those laws. The
First Circuit’s decision in this case threatens to upend
this federal program by permitting states and localities to impose their own requirements on participation. In doing so, the First Circuit decided an
important and sensitive question of federal law and
introduced state-by-state disuniformity into a program intended to provide uniform access and benefits.
Certiorari should be granted to address this important question and restore nationwide standards.
Already, friends and colleagues of amici have
been faced with an intolerable choice. They agreed to
participate in the program under terms designed by
federal statutes and regulations. With that understanding, they uprooted their lives and embarked on
an adventure in a country known worldwide as a land
of opportunity for newcomers and entrepreneurs.
Now, the Commonwealth of Massachusetts has unilaterally attempted to change the terms governing
these au pairs’ participation in the program, substantially increasing the financial and administrative burdens on host families. For those au pairs whose
families cannot accommodate or afford the new requirements, au pairs must choose whether to seek out
a new host family capable of meeting these new burdens or else face early return to their home country.

3
In such cases, the United States has not upheld its
end of the bargain it struck with au pairs—and au
pairs face the very real possibility of losing out on the
opportunity they traveled across the world to pursue.
As explained in the stories that follow, amici are
enterprising young women and men pursuing dreams
that are familiar to any American. In telling their stories, amici hope to convey the unique character of the
exchange program, its impact on their lives as global
citizens and on the lives of their American hosts, and
the urgent need for this Court’s review.
ARGUMENT
I.

THE AU PAIR PROGRAM STRIKES A
CAREFULLY CALIBRATED BALANCE OF
CHILDCARE, EDUCATION, CULTURAL
EXCHANGE, AND COMPENSATION AT
THE NATIONAL LEVEL

A. The au pair program is an important initiative
of federal foreign-affairs and immigration law. It provides a rich educational and cultural exchange program, and it does so by relying on uniform nationwide
rules. The First Circuit’s decision threatens to fatally
disrupt that scheme by injecting incoherence and uncertainty.
Congress enacted the Fulbright-Hays Act “to enable the Government of the United States to increase
mutual understanding between the people of the
United States and the people of other countries by
means of educational and cultural exchange.” 22
U.S.C. § 2451. The Act authorized the United States

4
Information Agency (USIA)—subsumed by the
United States Department of State in 1999—to provide for “educational exchanges . . . between the
United States and other countries of students, trainees, teachers, instructors, and professors.” 22 U.S.C.
§ 2452(a)(1)(B)(ii). The au pair program is one of several exchange programs established by USIA and now
administered by the State Department.
For more than 30 years, the au pair program has
furthered the goals of the Act by affording young foreign nationals “the opportunity to live with an American host family and participate directly in the home
life of the host family.” 22 C.F.R. § 62.31(a). Au pairs
provide up to 45 hours per week of child care for the
host family, see id., but the child-care component of
the program, though central and important, is only
one “limited” aspect of what is “primarily a cultural
and educational exchange program.” 60 Fed. Reg.
8547, 8548 (1995). While some exchange programs established under the Act focus on the educational benefits of having foreign nationals teach in American
schools or serve as camp counselors, see 22 C.F.R.
§§ 62.24, 62.30, the au pair program is premised primarily on the idea that “the family context provides a
unique opportunity for the host family and au pair to
learn about each other’s cultures and values.” 60 Fed.
Reg. 8548. In this way, the program serves to
“strengthen the ties which unite us with other nations
by demonstrating the educational and cultural interests, developments, and achievements of the people of
the United States and other nations.” 22 U.S.C.
§ 2451.

5
B. Amici’s stories, gathered in interviews and presented below, illustrate and reaffirm the wisdom of
this idea. At the core of each of these stories is a brave
and enterprising adventurer who took the bold step of
leaving behind the only country and family they had
ever known to become part of an American family.
These young people did not take this courageous step
just for the opportunity to provide child care here, as
significant as that part of the experience is. Rather,
they sought an overarching and immersive cultural
experience—the chance, as one put it, “to learn all I
can about America, its people, and its culture.”
Maria Arano Toral is an au pair living with her
host family in Winchester, Massachusetts. Originally
from Mexico, Maria graduated with a degree in chemical engineering and a passion for travel. After school,
she worked as a travel agent in her home country.
Having been educated bilingually at a British school
in Mexico, Maria began to consider graduate education in an English-speaking country. In the American
au pair program, Maria saw an opportunity to polish
her English skills—and thus qualify for English-language graduate programs—while exploring a new
country and culture. As she describes it, the program
was an opportunity she was not going to find in any
kind of job available to her at home, and it presented
a unique challenge that would help her grow as a person.
Maria considered au pair programs in a variety of
regions but found that, compared to the U.S., other
countries provide little to no oversight or regulation.
As a result, au pairs must navigate those programs
with a careful eye to their safety and security, given

6
the prevalence of fraud and even human trafficking.
In the American program, Maria could be matched
with a compatible host family through a formal
matching process, which gave her confidence that she
would have the support necessary to succeed.
Maria’s host family has welcomed her as one of
their own. They share meals, visit local museums together, and gossip about the latest celebrity news. Because Maria and her family love to cook, sharing
homemade dishes has been one important way they
have bonded and learned about each other’s culture.
The family has also encouraged Maria to take advantage of the program’s educational component, and
Maria is currently enrolled in a film-history class.
That class has advanced Maria’s academic and social
goals for the au pair program by introducing her to
the American education system and connecting her
with local peers who share her interests.
To be sure, like many au pairs, Maria’s experience
has not been free of challenges. After her initial match
did not work out, Maria relied on the sponsor organization to help her find her current placement where
she could be a full and genuine part of the host family.
With her initial experience in the rear-view mirror, Maria understands the concerns about properly
regulating and overseeing the au pair program. “We
are not just workers: we are parts of the family, and
we come here for a cultural-exchange experience.” As
she sees it, any program like this must evolve with
the times and provide for the needs of its participants
in a changing world. But the modest program-wide re-

7
forms Maria envisions—like ensuring that educational offerings are affordable in light of the au pairs’
budgets—will not come to pass if states are permitted
to impose their own requirements in a way that renders the program accessible only to the most well-off
families.
Ultimately, Maria believes that when the program works—by achieving an appropriate mix of
childcare, education, and cultural connections—it is
“so worth it.” “You grow as a human; you develop as a
person. It makes you stronger. You believe in yourself.”
***
Desirè Del Chiaro, a 20-year-old au pair from Sicily, Italy, came to the U.S. looking to travel and fully
immerse herself in American culture. “But I can’t do
those things if I’m just a worker or student.” Desirè
hoped for a meaningful “cultural experience” with an
American family that would treat her as one of their
own rather than “a domestic worker.” She reports
that her current host family in Boston has exceeded
her expectations. “My host mom is my mom, not my
boss. She supports me, and I can tell her anything.”
With her host family, Desirè has traveled throughout
the United States to New York, Florida, Colorado,
Michigan, San Francisco, Indiana, and Iowa. She
learned how “not only the landscape but also the people, the food, and the traditions change from one state
to another.”
In addition to soaking up the culture, Desirè has
nearly mastered English. “When I came here,” she

8
says, “I couldn’t speak much English, but now I’m doing so well that I can keep up with my studies and
communicate easily.” After completing English
courses last year, Desirè now studies occupational
and environmental health and psychology at Tufts
University. When asked about the children she cares
for—a 6-year-old boy and 8-year-old girl— Desirè says
“they are my brother and sister. I’m not ready to leave
them.” And the cultural exchange experience is not
limited to American culture. Desirè reports that because of the program, she now has friends among her
fellow au pairs from Germany, Brazil, China, Australia, Ecuador, and Colombia and understands
“much more about their countries, traditions, language, and culture.”
***
Ziyanda “Zee” Mdletshe from Durban, South Africa, turned to the au pair program as a way to “experience a different culture” and merge her love of travel
with her passion for children. The daughter of a university lecturer and independent businessman, Zee
chose the United States because as a native English
speaker, she would be able to focus on learning the
culture without the added struggle of learning a new
language. Her host mother, a single mom to a 6-yearold boy in Newburyport, Massachusetts, has gone
“above and beyond” to make her feel at home. “I am
not a worker; I am a family member. I’m included in
all holidays and family gatherings.” Zee has enjoyed
learning the “unique culture” of various states, including New Hampshire, Maine, Washington, D.C.,
Connecticut, and her favorite place, New Orleans,
Louisiana. “New Orleans is beautiful; it has its own

9
culture. The people are so different than on the East
Coast.” Zee is constantly amazed by the differences
between the U.S. and her home in South Africa. “Everything is different here, and I’m learning so much
about the food, people, and even smaller things like
recycling, road rules, and way of life.”
To fulfill her education requirement, Zee’s host
mom paid for her to travel to a course at the University of California at San Diego. “I learned so much
about American history, politics, and cultural diversity.” Zee has no regrets about participating in the au
pair program and says she will return to her home
country a totally different person. “This experience
means so much to me, especially coming from my
background. I’m the first in my family to even leave
South Africa. This opportunity means more than anything. It was never about a job. It was about experiencing a different culture, and being so far away from
home but still feeling at home. This program is about
the culture.”
***
Lea Pitou is a 22-year old aspiring graphic designer from Paris, France. After completing post-secondary studies in marketing and communications,
Lea’s love of exploration and discovering new things
attracted her to the au pair program. “It has always
been my dream to go to America, and I love children
and traveling, so the au pair program was a good fit.”
Lea chose a family in Boston with two children, ages
4 years and 21 months. From the beginning, Lea’s
host family has treated her as part of the family, making her comfortable enough to joke around and work

10
on her English. “They teach and correct my English,
which is really funny sometimes.” Lea recently vacationed with her host family and is included in all family outings and events. While she enjoys learning
about America, Lea takes special joy in sharing her
culture with her host children. “I love seeing them
grow up every day! I share my values and my culture
with them.”
Lea is taking English classes to fulfill the educational requirement. “I would like to work in graphic
design for an American company in France. I will
need my English skills, so the education is important
to me.” Lea believes that the program has been successful for her. “I’m so proud of myself for adapting. I
did not come here to be just a worker; I wanted to be
part of the family and the culture. And that’s what
happened for me.”
***
Torben van Vliet is a 19-year-old au pair from
northern Germany, now living with his host family in
Cohasset, Massachusetts. Torben represents a milestone for the au pair exchange program: he is the second generation of his family to come to the United
States through the program, encouraged by his aunt’s
experience in the program’s early years.
After graduating from secondary school, Torben
began to consider applying to be an au pair. He enjoys
caring for children and had long been fascinated by
American culture, dreaming that one day he would
have the chance to live here. In just a few months, his
family and classes have brought Torben around the

11
United States. He has studied public policy with other
au pairs in Washington, D.C., and hit the ski slopes
with his host family in Colorado. (He is pleased to report that the U.S. looks exactly like it does in the movies.)
Most importantly, Torben has fast become a member of the family. They share meals together, recount
their days at work or school, and explore the outdoors—whether high up in the Rockies or in their own
Bay State backyard. Beyond his host family, Torben
has befriended a network of other local au pairs,
which has provided support, camaraderie, and more
opportunities to explore local cultural offerings.
As he finished high school, Torben faced a dilemma many of his American peers know all too well.
Without the independent means to fund travel or unpaid internships, Torben looked for ways to broaden
his horizons and explore career paths while supporting himself. For him, the au pair program has provided an opportunity to continue to learn and grow
that he would not otherwise have been able to afford.
In that way, the program has struck a positive and
unique balance for Torben between education, family
duties, and compensation. He notes that this balancing is important for the host families, as well, many
of whom could not afford to participate under more
burdensome requirements. Torben fears that the au
pair program, which has opened new and exciting
doors for him, will be closed to the next generation of
au pairs if this delicate balance struck by federal law
is undone.

12
II. STATES SHOULD NOT BE PERMITTED TO
DISRUPT THE FEDERAL AU PAIR
PROGRAM
WITH
THEIR
OWN
REQUIREMENTS
As amici’s stories demonstrate, the au pair exchange program is a genuine hybrid of childcare and
learning, an economic and educational opportunity
not easily aligned with our traditional notions of work
and school. Amici unquestionably provide important
child-care support to their hosts, but they also become
integral parts of their American families. They share
meals and vacations together, experience achievements and setbacks together, and live and learn together as all American families strive to do.
This is precisely what the Fulbright-Hays Act and
the federal au pair program intended: to “increase[e]
mutual understanding between Americans and others through people-to-people contact.” 60 Fed. Reg.
8547. With this goal in mind, the federal government
has carefully weighed and established regulations
that govern childcare hours, living conditions, training, education, and compensation. See 22 C.F.R.
§ 62.31. Under these balanced rules, the au pair program has flourished. Scores of au pairs like amici
have experienced American culture and shared their
unique cultures with their host families, in an exchange that greatly benefits everyone involved.
If allowed to stand, Massachusetts’ attempt to impose its own regulations on the au pair program would
undermine—and potentially destroy—the program.
State-by-state regulation of the au pair program
threatens the deliberate balance struck by the federal

13
government, emphasizing instead labor and compensation at the expense of the program’s core educational and cultural components. Amici fear the result
would be a program that caters only to those families
who can meet the increased financial and administrative burdens—or even no program at all in such
states.
This Court has not hesitated to “invalidate[] the
States’ attempts to second-guess the reasonableness
of” federal regulations. Hughes v. Talen Energy Mktg.,
LLC, 136 S. Ct. 1288, 1298 (2016). It should not hesitate to do so now, especially where, as here, the federal program relies on nationwide uniformity to
achieve its extraordinarily worthy goals.
CONCLUSION
This Court should grant the petition for certiorari
and reverse the judgment below.
Respectfully submitted,

Dated April 16, 2020

Mark S. Davies
Counsel of Record
Kelsi Brown Corkran
Thomas M. Bondy
Tiffany R. Wright
James Anglin Flynn
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1152 15th Street NW
Washington, DC 20005
(202) 339-8400

